1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
United States

Paul D. Clement
To Call Writer Directly:
+1 202 389 5000
paul.clement@kirkland.com

Facsimile:
+1 202 389 5200

+1 202 389 5000
www.kirkland.com

March 17, 2020
By Hand Delivery and Electronic Filing
Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543

Re: Capron v. Office of the Attorney General of Massachusetts, No. 19-1031
Dear Mr. Harris:
On February 28, 2020, respondents waived their right to respond to the petition for a writ
of certiorari in the above-captioned case. On behalf of petitioners, I write to inform the Court
that an association representing the educational and cultural exchange community, a group of
host parents, and a group of au pairs each intends to file briefs amici curiae in support of the
petition and the position of the United States that Massachusetts’ unprecedented effort to
regulate the au pair program is preempted. Unless the Court alters their deadline by calling for a
response to the petition before March 20, 2020, these amici intend to file their briefs by that date.
Petitioners respectfully request that this letter be circulated with the petition for a writ of
certiorari.
Sincerely,

Paul D. Clement
cc:

Beijing

Boston

Counsel of Record

Chicago

Dallas

Hong Kong

Houston

London

Los Angeles

Munich

New York

Palo Alto

Paris

San Francisco

Shanghai

